                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460



                                                                             THE INSPECTOR GENERAL




                                               August 3, 2004

The Honorable James Jeffords
United States Senate
Washington D.C. 20510

Dear Senator Jeffords:

        The enclosed Special Report is a partial response to your March 30, 2004, letter
requesting that we provide certain information related to our October 10, 2003, report,
Congressional Request on EPA Enforcement Resources and Accomplishments,
Report No. 2004-S-00001. Also, we are providing a copy of our October 2003 report for your
convenience. Identical letters are being sent to Senators Leahy, Lautenberg, Mikulski and
Wyden.

         Specifically, the enclosed Special Report entitled Congressional Request on Updating
Fiscal 2003 EPA Enforcement Resources and Accomplishments, Report 2004-S-00002, responds
to item #1, in which you requested that we update all tables and figures with final Fiscal 2003
information. The Special Report provides the data for those tables needing updating.

        We obtained the information in this Special Report from the Environmental Protection
Agency’s (EPA) Office of Enforcement and Compliance Assurance (OECA) and Office of the
Chief Financial Officer. We did not evaluate the controls over the systems that produced this
information and did not selectively verify the data to source documents. Therefore, the Special
Report does not represent an audit conducted in accordance with Government Auditing
Standards.

        Your letter included two additional requests. The first was a request to evaluate why
EPA does not have systems in place to determine whether it is adequately enforcing the Nation’s
environmental laws. We briefed committee staff on July 8, 2004, on the findings and
recommendations included in our June 22, 2004, report, EPA Needs to Improve Tracking of
National Petroleum Refinery Compliance Program Progress and Impacts,
Report No. 2004-P-00021. We notified the committee that this evaluation was one in a series of
evaluations looking at enforcement and compliance across EPA. The committee staff asked to be
apprised of EPA’s 90-day response to the report and subsequent actions taken by EPA to correct
the problems identified in the report. We will provide this information when it is available.
                                             2


          The second request was for an evaluation of EPA’s claim that the decline in formal
National Pollutant Discharge Elimination System (NPDES) enforcement actions has been
compensated for by a diversion of NPDES resources to enforce against wet weather discharge
violations. In response, we sent a questionnaire on June 25, 2004, to the OECA headquarters
office and all 10 regional offices. The questionnaire requested the following information: (1) the
number of EPA formal wet weather and non-wet weather NPDES enforcement actions for the
last 5 fiscal years (FYs); (2) the number of EPA resources (Full Time Equivalents) working on
wet weather and non-wet weather cases for the last 5 FYs; and (3) the length of time it takes EPA
to resolve wet weather enforcement cases in comparison to core program enforcement cases. A
final report is tentatively scheduled to be issued by the end of August.

        Should your staff have any questions concerning this response, please have them contact
Eileen McMahon, Assistant Inspector General for Congressional and Public Liaison, at (202)
566-2391.

                                                    Sincerely,

                                                    /s/

                                                    Nikki L. Tinsley

Enclosures
         OFFICE OF INSPECTOR GENERAL

                                Catalyst for Improving the Environment


Special Report




          Congressional Request on
          Updating Fiscal 2003
          EPA Enforcement Resources
          and Accomplishments

          Report 2004-S-00002


          August 3, 2004
      Update of Data in Office of Inspector General Report,
                  “Congressional Request on
      EPA Enforcement Resources and Accomplishments,”
          Report No. 2004-S-00001, October 10, 2003

Certain tables in the October 2003 report, given their nature, did not require update. They are
Tables 1.1, 1.2, 1.5, 2.1, 2.2, 4.1, 4.2, 6.1, B.8, B.9, B.10, B.11, and B.12. In addition, updated
information for Table 8.2, entitled Civil Administrative and Judicial Orders Issued Since 1995
Concerning Overflows of Sanitary Sewers or Combined Sewers, will be provided at a later date.
An Office of Inspector General team is reviewing EPA’s claim that the decline in formal
National Pollutant Discharge Elimination System enforcement actions has been compensated for
by a diversion of resources to enforce against wet weather discharge violations.

Following are the tables with final FY 2003 data. The tables on budget and cost information are
presented in two ways: for Strategic Goal 9, A Credible Deterrent to Pollution and Greater
Compliance with the Law, and for OECA. The tables for Goal 9 cover EPA’s work to ensure
full compliance with the laws intended to protect human health and the environment. The data in
the Goal 9 tables include the activities of OECA, other Headquarters’offices, and regional
offices. In addition to work related to Goal 9, OECA performed activities related to former
Strategic Goal 5, Better Waste Management, Restoration of Contaminated Sites, and Emergency
Response, and former Strategic Goal 7, Quality Environmental Information. In September 2003,
EPA moved to a five-goal structure.
                                            Table 1.3
                      Enforcement Program (Goal 9) Dollars (in thousands)
                   Request, Enacted, Operating, and Actual for Fiscal 2000-2004

                            President’s           Enacted           Operating              Actual
    FY     Objective           Request             Budget                Plan              Costs
   2000    01                $292,917.6         $322,387.5         $323,360.1          $320,647.2
           02                 $38,417.4          $49,417.2          $52,988.0           $50,291.8
                Total        $331,335.0         $371,804.7         $376,348.1          $370,939.0

   2001    01                $351,306.7         $345,554.5         $345,554.5          $335,773.1
           02                 $52,464.8          $52,860.9          $52,860.9           $55,786.0
                 Total       $403,771.5         $398,415.4         $398,415.4          $391,559.1

   2002*   01                $356,652.5         $337,781.6         $338,137.5          $345,342.0
           02                 $54,563.2          $55,768.5          $55,696.3           $54,049.1
                 Total       $411,215.7         $393,550.1         $393,833.8          $399,391.1

   2003    01                $346,590.5         $346,181.7         $349,251.7          $352,155.8
           02                 $55,872.4          $55,907.2          $57,187.8           $54,152.3
                 Total       $402,462.9         $402,088.9         $406,439.5          $406,308.1
   2004    01                $372,173.1
           02                 $58,387.4
                 Total       $430,560.5

  * The 2002 Enacted Budget and Operating Plan included the supplemental appropriation.

For FY 2000 and FY 2001, Objective 1 was “Enforcement Tools to Reduce Non-Compliance” and
Objective 2 was “Increase Use of Auditing, Self-Policing Policies.” In FY 2002, Objective 1 became
“Increase Compliance Through Enforcement” and Objective 2 became “Promote Compliance
Through Incentives and Assistance.”

Note: Data includes the activities of OECA, other Headquarters offices, and regional offices.
                                   Table 1.4
              Enforcement Program (Goal 9) FTE
           Request, Enacted, Operating and Actual for Fiscal 2000-2004

                              President’s      Enacted      Operating        Actual
    FY       Objective           Request        Budget           Plan          FTE
   2000      01                   2,192.1       2,148.1       2,148.2       1,925.4
             02                     348.0         422.6         422.6         388.6
                      Total       2,540.1       2,570.7       2,570.8       2,313.9

   2001      01                   2,149.2       2,130.5        2,130.5      1,905.7
             02                     423.5         423.3          423.3        399.0
                      Total       2,572.7       2,553.8        2,553.8      2,304.6

   2002      01                   1,910.3       2,075.9        2,072.6      1,990.5
             02                     420.0         416.6          416.3        405.6
                      Total       2,330.3       2,492.5        2,488.9      2,396.1

   2003      01                   1,932.6       2,071.1        2,074.2      1,972.2
             02                     398.1         399.3          402.7        401.9
                      Total       2,330.7       2,470.4        2,476.9      2,374.1

   2004      01                   2,079.3
             02                     401.1
                      Total       2,480.4


In some cases, columns may not add up due to rounding.

Note: the data includes FTEs for OECA, other Headquarters offices, and regional offices.
                                                 Table 3.1
                                             Current Case Load

                         Type of Case                                           No.

                         Criminal *                                           1,147

                         Civil **
                            Clean Air Act                                       807
                            Resource Conservation and Recovery Act              814
                            Clean Water Act                                     642

                         Total                                                3,410


* As of June 12, 2004
** Clean Air Act and Clean Water Act data are as of June 12, 2004; Resource Conservation and Recovery
   Act data are as of June 9, 2004. Clean Air Act data represent universe of High Priority Violators;
   Resource Conservation and Recovery Act data represent universe of Significant Non-Compliers; and
   Clean Water Act data represent major National Pollutant Discharge Elimination System facilities in
   Significant Non-Compliance.

Note: The criminal cases are at various stages of the criminal enforcement process, from the
investigative stage through litigation. Regarding the data for civil cases, our prior report indicated that
OECA officials stated that it was difficult to limit the information to cases at a specific stage in the
enforcement process. The officials stated “because of the nature of the case development process, we
cannot generate a complete snapshot of our enforcement workload, where at any one time we may be
resolving violations informally, gathering additional evidence following an inspection to develop a
referral, or deciding whether to proceed administratively or judicially.”



                                                   Table 3.2
                                 Disposition of Leads Received in Fiscal 2003

                                                          Referred to       Referred to       Opened as a
     Under          Closed Prior to     Referred to           EPA             Other            Criminal
   CID Review          Referral         State/Local      Civil Program       Federal             Case

    326 (13%)          747 (31%)         717 (29%)          206 (8%)          138 (6%)         316 (13%)


CID: Criminal Investigation Division
                                              Table 3.3
                      Criminal Cases Opened, Closed, and Outstanding – 2000-2003

                                             2000               2001              2002               2003

Initiated during the year
    Environmental crimes                       477               482                484               471
    Counter-terrorism                            0                 0                190 *              37
                         Totals                477               482                674               508

Closing during the year
   Environmental crimes                        452               407                451               469
   Counter-terrorism                             0                 0                105                40
                        Totals                 452               407                556               509

Open at end of the year
  Environmental crimes                       1,001             1,076              1,109             1,099
  Counter-terrorism                              0                 0                 85                94
                          Totals             1,001             1,076              1,194             1,193


*   After the FY 2002 accomplishment reports were issued, 10 additional counter-terrorism cases were identified.
    For consistency with the accomplishments reports, we have not included the additional cases.
                                      Table 5.1
               Criminal Cases Initiated by Media In Fiscal 2000-2003

Media Description                         2000       2001        2002      2003
Air                                         91        108          77       87
Superfund                                   11         15          11        7
Emergency Planning and                       2           2             2     0
Community Right to Know Act
Pesticides                                   6         17          15       21
Other                                        5           7             3     9
Solid Waste                                135        108         107      111
Toxics                                       7           9         17       14
Title 18 Violation                          36         46         198       40
Water                                      170        159         227      170
Safe Drinking Water                          3           5         12       10
404 (Wetlands)                              11           6             5     2
Counter Terrorism *                                                         37
      Totals                               477        482         674      508


 * In prior OIG report, Counter Terrorism cases were included under Title 18 violations.


                                   Table 5.2
                     Criminal Cases Closed In Fiscal 2000-2003

Primary Media                             2000       2001        2002      2003
Air                                         89         75          73       89
Superfund                                   22         12          19        7
Emergency Planning and                       0           3             1     0
Community Right to Know Act
Pesticides                                  16         10          11       15
Other                                        3           4             6     8
Solid Waste                                111        119         119       93
Toxics                                       7           8         11       11
Title 18 Violation                          31         19         131       53
Water                                      159        146         173      176
Safe Drinking Water                          7           4             7    13
404 (Wetlands)                               7           7             5     4
Counter Terrorism *                                                         40
      Totals                               452        407         556      509



* In prior OIG report, Counter terrorism cases were included under Title 18 violations.
                                                   Table 5.3
                                        Years of Incarceration Imposed
                                     For Cases Closed In Fiscal 2000-2003


              Primary Media *                            2000        2001      2002           2003
              Air                                         22.7         33.5      52.8          44.8
              Superfund                                    1.2        115.8       3.4           0.6
              Emergency Planning and                       0.0          1.5       0.0           0.0
              Community Right to Know Act
              Pesticides                                   0.3          0.5       0.0           0.6
              Other                                        0.5          9.0       1.6           0.0
              Solid Waste                                 71.5         42.4      85.7          39.8
              Toxics                                       2.3          3.0       9.3           1.7
              Title 18 Violation                           4.5          2.6       6.1          13.4
              Water                                       35.3         44.0      51.8          35.6
              Safe Drinking Water                          7.6          0.0       4.0           2.0
              404 (Wetlands)                               0.3          3.6       0.5           7.8
              Counter Terrorism                                                                  0

                    Totals                               146.2        256.0     215.2         146.2




               In some cases, columns may not add due to rounding

                                                 Table 5.4
                                   Fines and Restitution Assessed
                                   For Cases Closed in Fiscal 2000-2003


Primary Media *                                  2000                2001             2002                2003
Air                                         $5,714,318      $25,315,683        $7,162,382         $21,344,586
Superfund                                       70,400          16,742,004      3,054,294                30,000
Emergency Planning and                               0             15,000                0                    0
Community Right to Know Act
Pesticides                                    583,745             128,505        120,100                 24,821
Other                                        3,757,500           8,298,637       356,700               7,056,550
Solid Waste                                 38,509,153           1,611,479      2,569,531              2,314,301
Toxics                                       1,492,084            357,336        280,000                  8,615
Title 18 Violations                          2,276,399           4,033,036     18,771,955              4,193,235
Water                                       39,730,733          37,937,841     29,865,606             36,207,684
Safe Drinking Water                         29,840,156              8,000             8,750              11,366
404 (Wetlands)                                       0            278,762         63,000                122,100
Counter Terrorism                                                                                            $0

               Total                     $121,974,488       $94,726,283       $62,252,318         $71,313,258
                                                 Table 6.2
                                      Number of Criminal Cases Initiated

                                 FY        Planned         Actual         Met?
                                2000          500            477           No
                                2001          450            482          Yes
                                2002          400            674          Yes
                                2003          400            508          Yes




                                            Table 7.1
                Performance Measures Under Annual Performance Goal 53 for FY 2003

                            Measure                                   Planned              Actual         Met?

 75% of concluded enforcement actions require physical action             75%               63%             No
 that result in pollutant reductions and/or changes in facility
 management or information practices.

 Millions of pounds of pollutants required to be reduced through         300 M             600 M           Yes
 enforcement actions settled this fiscal year.

 Develop and use valid compliance rates or other indicators of             5                 5             Yes
 compliance for selected populations.                                  populations       populations

Note: EPA changed its performance goal structure for FY 2003. The measures above appeared under
Annual Performance Goal 58 in FY 2002.



                                               Table 7.2
                            Other Annual Performance Goals Related to Goal 9

    Annual Performance Goal 51: COMPLIANCE INCENTIVES:
           Increase opportunities through new targeted sector initiatives for industries to voluntarily self-
           disclose and correct violations on a corporate-wide basis.
    Annual Performance Goal 52: INSPECTIONS/INVESTIGATIONS:
           EPA will conduct inspections, criminal investigations, and civil investigations targeted to
           areas that pose risks to human health or the environment, display patterns of non-
           compliance, or include disproportionately exposed populations.
    Annual Performance Goal 54: QUALITY ASSURANCE:
           Identify noncompliance and focus enforcement and compliance assurance on human health
           and environmental problems, by maintaining and improving quality and accuracy of data.
    Annual Performance Goal 55: CAPACITY BUILDING:
           Improve capacity of States, localities and tribes to conduct enforcement and compliance
           assurance programs. EPA will provide training as well as assistance with State and tribal
           inspections to build capacity.

       Note: EPA changed its performance goal structure for FY 2003. The goals above appeared
       under different goal numbers in FY 2002. OECA reported that these measures were met for FY
       2003.
                                              Table 8.1*
                                       Number of Formal NPDES
                                         Enforcement Actions


           FY                       State                      EPA                        Total

          1999                       631                        304                        935

          2000                       722                        201                        923

          2001                       639                        174                        813

          2002                       641                        216                        857

          2003                       483                        180                        663



 * Per OECA, the data in Table 8.1 of the prior OIG report reflected the number of facilities that
   received formal enforcement actions. According to OECA, the data above reflects the actual
   number of enforcement actions for major facilities for each fiscal year. Major facilities include
   municipal dischargers designed for flows of greater than one million gallons per day.




                                              Table 8.3
                              EPA Clean Water Act Enforcement Actions
                                Filed Since 1997 Against Operators of
                              Concentrated Animal Feeding Operations


                                                             Number
                                           FY                 Filed

                                        1997                      14
                                        1998                      43
                                        1999                      40
                                        2000                      44
                                        2001                      18
                                        2002                       4
                                        2003                      18

                                        Total                   181*



*OECA officials indicated that the data came from an unofficial case list and should not be
considered official OECA data subjected to a quality assurance process. They also stated that
using this data, especially in a manner other than the purpose for which it was intended, may
present problems if they are asked to update it in the future and comparisons are made.
                                       Table B.1
                 Enforcement Program (Goal 9) Actual Costs (in thousands)
                         By Major Organization For FY 2000-2003

Organization                                 2000          2001           2002         2003
Region 1                                $15,798.9     $17,442.0      $16,830.1    $17,193.0
Region 2                                 22,809.9      23,684.1       23,913.9     21,281.2
Region 3                                 23,258.6      24,030.8       23,924.6     23,208.1
Region 4                                 31,709.4      32,443.7       31,731.8     34,941.6
Region 5                                 35,842.1      38,779.8       39,035.3     44,233.9
Region 6                                 27,243.0      28,770.9       28,893.5     28,559.3
Region 7                                 15,388.8      15,395.2       15,707.7     16,472.6
Region 8                                 14,312.9      14,572.0       15,683.5     16,368.0
Region 9                                 23,200.0      24,241.4       25,436.9     27,038.3
Region 10                                13,308.7      13,569.7       14,335.1     14,677.2
Office of Administration and             38,868.8      42,489.5       33,452.1     22,234.2
 Resources Management
Office of Chief Financial Officer         2,794.1       3,083.9        3,082.0      3,024.6
Office of General Counsel                   (65.1)      1,331.0          833.9        781.9
Office of Enforcement and               106,290.5     111,518.5      126,530.4    136,282.5
 Compliance Assurance
Merged Appropriations Accounts              178.3         206.7           0.0        71.4
                              Totals   $370,939.0    $391,559.1    $399,391.1 $406,367.7*



  *   EPA records include an adjusting entry of $59,696 not associated with any office
      above. Considering this adjustment, EPA records reflect actual costs of $406,308.1.


  In some cases, columns may not add up due to rounding.
                                       Table B.2
                        Enforcement Program (Goal 9) Actual FTE
                             by Major Office In FY 2000-2003

                  Organization                          2000         2001       2002       2003
Region 1                                               109.0        118.1      109.1     109.3
Region 2                                               174.4        168.8      169.6     167.8
Region 3                                               152.5        149.1      162.1     158.3
Region 4                                               210.3        236.5      227.4      220.2
Region 5                                               252.8        278.3      269.2      245.9
Region 6                                               208.7        230.2      216.6      213.8
Region 7                                               114.5        115.2      114.5      107.9
Region 8                                               104.4           2.5     102.7      101.8
Region 9                                               140.8        151.5      147.7      149.4
Region 10                                              107.0        115.8      113.6      106.5
Office of Administration and Resources Management       17.4           1.4       0.0        0.0
Office of Chief Financial Officer                        14.6          0.0        0.0        0.0
Office of General Counsel                                 4.4         12.7        6.6        6.6
Office of Enforcement and Compliance Assurance         703.2        724.5      756.9      786.7
                        Totals                       2,313.9      2,304.6    2,396.1    2,374.1



  In some cases, columns may not add up due to rounding.
                                         Table B.3
                 Superfund Actual FTE In The Enforcement Program (Goal 9)
                        By Major Organization During FY 2000-2003

                  Organization                            2000       2001     2002         2003
Region 7                                                  (0.1)        0.0      0.0          0.0
Office of Chief Financial Officer                           0.6        0.0      0.0          0.0
Office of Enforcement and Compliance Assurance            93.0        93.8     95.8        103.0
                        Totals                             93.5       93.8     95.8        103.0




                                            Table B.4
                        Office of Enforcement and Compliance Assurance
                               Actual FTE by Goal For FY 2000-2003

                Goal                 2000          2001            2002         2003
                 5                    96.5        101.8           103.9        103.7
                 6                     0.0          0.0              0.0         0.3
                 7                    29.6         30.3            25.8         21.2
                 9                   703.2        724.5           756.9        786.7
               Totals                829.3        856.6           886.6        911.8


          In some cases, columns may not add up due to rounding.

          Goal 5 - Better Waste Management, Restoration of Contaminated Sites, and Emergency
                  Response

          Goal 6 - Reduced Global and Cross-Border Environmental Risks

          Goal 7 - Quality Environmental Information

          Goal 9 - A Credible Deterrent to Pollution and Greater Compliance with the Law
                                             Table B.5
                             OECA Actual Costs by Office for FY 2000-2003

                  Description *                        2000           2001         2002        2003
Immediate Office - Assistant Administrator for     $308,817     $3,689,582   $4,266,548    ($55,266)
Enforcement and Compliance Assurance
Administration and Resource Management             3,189,854     2,596,552    2,965,261    3,580,265
Support Staff
Assistant Administrator Enforcement -              3,156,368     3,241,164    4,203,097   10,935,757
Immediate Office
OECA LAN Support                                     169,950       870,298      619,838      528,745
Office of Planning & Policy Analysis and           3,689,220     3,307,661    3,784,739      697,207
Communication
Office of Environmental Justice                    4,377,709     4,071,312    3,506,337    1,939,006
               Subtotal OECA Immediate Office     14,891,919    17,776,568   19,345,821   17,625,715
Office of Federal Activities (OFA)
Mountaintop Mining                                   100,000             0            0       (9,942)
Office of Federal Activities                       3,882,890     4,243,379    3,925,327    4,268,837
                                   Subtotal OFA    3,982,890     4,243,379    3,925,327    4,258,895
Office of Criminal Enforcement, Forensics and
Training (OCEFT)                                       5,860       376,471      144,226       (3,679)
Seattle - Region 10 CID                              950,000             0            0             0
New York - Region 2 CID                                    0             4            0             0
Philadelphia - Region 3 CID                                0           178           11           351
Chicago - Region 5 CID                                     0           316        (316)             0
Legal Counsel and Resource Management              2,394,011     2,292,731    3,879,411    4,555,817
Division
Criminal Investigation Division                   24,825,805    26,554,894   29,209,206   30,956,257
Immediate Office - OCEFT                           4,436,825     5,980,879    7,710,617   10,657,798
Director National Enforcement Investigations
Center Division                                   13,277,509    11,776,798   12,926,095   13,907,240
National Enforcement Training Institute            4,416,908     4,849,371    4,727,405    5,302,577
Division
                                Subtotal OCEFT    50,306,917    51,831,643   58,596,655   65,376,362
Office of Compliance (OC)                              4,406        55,173      250,000       (1,828)
Natl Center for Manufacturing Sciences - MI                0       498,900            0      315,118
OC - Immediate Office                              1,257,836     1,714,992    1,597,993    1,489,880
Enforcement Training Planning, Targeting and
Data Division                                     10,918,959    11,619,063   15,378,100   14,489,243
Manufacturing, Energy, Transportation              3,437,581     3,784,530    3,059,311    3,257,446
Division
Chemicals, Communications Services &
Municipals Division                                4,889,421     4,009,351    4,042,267    4,219,335
Agriculture and Ecosystems Division                3,038,898     3,286,122    2,858,325    3,163,730
National Enforcement Investigations Center
Division - Denver                                    344,984       200,494      200,695      216,395
Pesticide Enforcement State Grants                    (6,785)            0            0            0
Oil Spill                                             86,797        93,914       83,812       99,150
                                    Subtotal OC   23,972,097    25,262,539   27,470,504   27,248,470
                  Description *                           2000           2001           2002            2003
Office of Regulatory Enforcement (ORE)                   1,849         12,385      (179,500)           (242)
Office of Regulatory Enforce-CT Preparedness                 0              0        179,500               0
Air Enforcement Division                             5,504,258      5,491,460      6,008,786       6,119,946
ORE - Immediate Office                               1,401,453      2,076,356      1,874,203       2,235,757
Multimedia Enforcement / Strategic Plan              3,099,974      3,519,682      3,598,316       3,914,140
RCRA Enforcement Division                            1,870,403      2,848,255      2,675,715       2,406,295
Toxics and Pesticides Enforcement Division           2,827,124      2,989,763      3,321,565       3,147,685
Water Enforcement Division                           4,530,992      4,379,262      5,133,911       4,463,564
                                  Subtotal ORE      19,236,053     21,317,163     22,612,495      22,287,145
Office of Site Remediation Enforcement                  86,047        448,846        401,348               0
(OSRE)
Site Specific Region 03                                      0            259              0           3,114
Management Division                                 33,160,764     32,475,309     30,745,573      28,391,997
Policy and Program Evaluation Division               5,512,726      4,463,883      5,026,387       5,251,517
Regional Support Division                            4,361,139      4,559,155      4,523,940       5,396,885
                                 Subtotal OSRE      43,120,676     41,947,452     40,697,248      39,043,513
Federal Facilities Enforcement (FFE)                     5,542          1,887              0           (222)
Federal Facilities Enforcement                       3,469,509      3,320,449      3,312,100       3,594,157
                                   Subtotal FFE      3,475,051      3,322,336      3,312,100       3,593,934
Office of Enforcement Capacity and Outreach
(OECO)                                                  25,984              0              0               0
Communications                                         199,806        101,121              0               0
OECO - Immediate Office                                915,167        760,511              0        (15,691)
Environmental Justice                                   97,800         58,014              0               0
Constituent Outreach and Communication                 508,379        239,447              0               0
                                 Subtotal OECO       1,747,136      1,159,093              0        (15,691)
Office of Planning, Policy Analysis and
Communications (OPPAC)                                      0              0               0         16,101
Office of Planning, Policy Analysis and
Communications                                              0              0               0       3,019,034
                                Subtotal OPPAC              0              0               0       3,035,135
Office of Environmental Justice (OEJ)                       0              0               0         268,316
Office of Environmental Justice                             0              0               0       2,149,639
                                  Subtotal OEJ              0              0               0       2,417,955

                    Totals                        $160,732,738   $166,860,173   $175,960,149   $184,871,432



* These descriptions came from the accounting system and may not match the official name of the organization.

In some cases, columns may not add up due to rounding.
                                             Table B.6
                                      OECA Actual FTE by Office
                                         for FY 2000-2003

                               Description *                               2000    2001    2002    2003
OECA Immediate Office
Administration and Resource Management Support Staff                        20.9    25.9    31.6    26.7
Assistant Administrator Enforcement - Immediate Office                       7.7     7.8    10.3    19.0
Office of Planning & Policy Analysis and Communication                      23.1    24.2    25.8    -0.3
Office Environmental Justice                                                14.2    14.5    13.9     0.9
                                         Subtotal OECA Immediate Office     65.8    72.4    81.5    46.3

Office of Federal Activities                                                27.8    28.7    27.1    27.0

Office of Criminal Enforcement, Forensics and Training (OCEFT)
Legal Counsel and Resource Management Division                              21.1    22.0    34.6    37.3
Criminal Investigation Division                                            192.1   203.0   216.6   227.9
Immediate Office Criminal Enforcement                                       17.8    16.0    18.1    24.8
Director National Enforcement Investigations Center Division                93.3    95.6    98.1    97.3
National Enforcement Training Institute Division                            22.1    23.2    23.3    24.6
                                                         Subtotal OCEFT    346.5   359.8   390.7   412.0
Office of Compliance (OC)
Office of Compliance - Immediate Office                                      7.2     6.6     7.1     6.5
Enforcement Planning, Targeting and Data Division                           66.2    67.9    69.9    68.6
Manufacturing, Energy, Transportation Division                              23.7    23.3    20.6    23.0
Chemicals, Communications Services & Municipals Division                    25.2    21.3    24.8    23.4
Agriculture and Ecosystem Division                                          22.4    22.3    20.4    19.4
National Enforcement Investigations Center Division Denver                   3.6     2.2     2.1     2.0
Oil Spill                                                                    0.9     1.0     0.9     0.8
                                                             Subtotal OC   149.4   144.5   145.7   143.7
Office of Regulatory Enforcement (ORE)
Air Enforcement Division                                                    34.6    37.0    37.0    40.0
Office of Regulatory Enforcement - Immediate Office                          6.8     9.0     9.6     8.9
Multimedia Enforcement / Strategic Plans                                    21.2    24.2    22.7    26.7
RCRA Enforcement Division                                                   16.4    17.2    17.2    15.6
Toxics and Pesticides Enforcement Division                                  23.9    26.8    24.6    24.2
Water Enforce Division                                                      26.1    26.0    26.9    27.1
                                                            Subtotal ORE   129.1   140.1   137.8   142.7
Office of Site Remediation and Enforcement (OSRE)
Management Division                                                         17.1    17.9    18.4    16.3
Policy and Program Evaluation Division                                      32.3    30.5    33.2    32.6
Regional Support Division                                                   30.6    35.0    32.5    34.2
                                                           Subtotal OSRE    79.9    83.4    84.1    83.1
                               Description *                                 2000    2001     2002    2003
 Federal Facilities Enforcement                                              18.8    20.7     19.6    20.0
 Office of Enforcement Cap and Outreach (OECO)
 Communications                                                                2.8     1.6
 Office of Enforcement Cap and Outreach - Immediate Office                     3.8     2.2
 Environmental Justice                                                         0.9     0.6
 Constituent Outreach and Communication                                        4.6     2.5      0.0
                                                          Subtotal OECO       12.1     6.9      0.0     0.0
 Office of Planning, Policy Analysis and Communication                                                 24.0
 Office of Environmental Justice                                                                       13.1

                                  Totals                                    829.3    856.5    886.6   911.8


* These descriptions came from the accounting system and may not match the official name of the organization.

In some cases, columns may not add up due to rounding.
                                             Table B.7
                                OECA Actual Costs For Contracts And
                         Assistance Agreements By Office In Fiscal 2000-2003

               Description *                      2000          2001             2002          2003
Immediate Office - Assistant
Administrator for Enforcement and                   $0         $6,555          $52,589       $7,051
Compliance Assurance
Administration and Resource
Management Support Staff                        10,475        386,860          317,379      748,926
OECA - Immediate Office                        172,162        306,187          591,260    1,282,401
OECA LAN Support                                 4,585          1,405          423,104      147,234
Office of Planning & Policy Analysis and
Communication                                   512,147       794,503        823,934        661,036
Office of Environmental Justice               1,802,093     2,298,745      1,673,657      1,746,311
          Subtotal OECA Immediate Office      2,501,462     3,794,254      3,881,922      4,592,959
Office of Federal Activities (OFA)
Mountaintop Mining                             100,000              0                0       (9,942)
Office of Federal Activities                   821,297      1,294,902          908,685    1,062,028
                              Subtotal OFA     921,297      1,294,902          908,685    1,052,086
Office of Criminal Enforcement,
Forensics and Training (OCEFT)
Seattle - Region 10 CID                        950,000             0                0             0
Legal Counsel and Resource
Management Division                             272,775        36,640        218,450        241,983
Criminal Investigation Division                 419,512       482,283        614,577        520,282
Immediate Office - OCEFT                      1,062,807     2,458,594      1,512,588      2,556,491
Director National Enforcement                 2,624,277     1,405,641      2,040,259      2,569,839
Investigations Center Division
National Enforcement Training Institute       1,552,222     2,042,345      1,827,628      2,201,915
Division
                           Subtotal OCEFT     6,881,594     6,425,504      6,213,502      8,090,509
Office of Compliance (OC)                             0             0        100,000          9,934
Natl Ctr for Manuf Sciences - MI                      0       498,900              0        315,118
OC - Immediate Office                           370,452       791,566        664,077        584,992
Enforcement Planning, Targeting and
Data Division                                 3,812,790     4,330,566      7,509,697      6,393,625
Manufacturing, Energy, Transportation
Division                                       826,362      1,270,580          781,292     593,440
Chemicals, Communications Services &
Municipals Division                           2,119,999     1,688,925      1,382,320      1,411,164
Agriculture and Ecosystem Division              630,659       814,600        528,477        727,300
                               Subtotal OC    7,760,261     9,395,138     10,965,863     10,035,572
Office of Regulatory Enforcement (ORE)
Air Enforcement Division                      1,714,841     1,537,080      1,870,969      1,387,249
ORE - Immediate Office                          463,553       819,765        571,560        952,916
Multimedia Enforcement / Strategic Plans        675,007       918,821        872,989        647,134
RCRA Enforcement Division                        70,511       996,436        712,194        525,359
Toxics and Pesticides Enforcement               279,269       242,865        547,408        321,131
Division
Water Enforcement Division                    1,624,535     1,501,850      2,030,246      1,093,117
                              Subtotal ORE    4,827,716     6,016,816      6,605,365      4,926,907
                 Description *                       2000             2001            2002             2003
 Office of Site Remediation Enforcement
 (OSRE)
 Management Division                            30,974,488      30,492,264      28,763,925       26,026,794
 Policy and Program Evaluation Division          2,299,505       1,474,411       1,628,045        1,498,437
 Regional Support Division                         908,639         793,401         775,039        1,108,465
                             Subtotal OSRE      34,182,632      32,760,076      31,167,009       28,633,696
 Federal Facilities Enforcement                  1,272,964         946,217         974,331          982,019
 Office of Enforcement Cap and Outreach            507,132         601,311               0          (15,231)
 Office of Planning, Policy Analysis and
 Communications (OPPAC)                                  0               0               0            4,023
 Office of Planning, Policy Analysis and
 Communications                                          0               0               0           51,268
                           Subtotal OPPAC                0               0               0           55,292
 Office of Environmental Justice (OEJ)                   0               0               0          224,367
 Office of Environmental Justice                         0               0               0          417,420
                               Subtotal OEJ              0               0               0          641,788

                   Totals                      $58,855,058     $61,234,217     $60,716,678     $58,995,597



* These descriptions came from the accounting system and may not match the official name of the organization.

  In some cases, columns may not add up due to rounding.
                                                                            Appendix



                                     Distribution


United States Senate

The Honorable James M. Jeffords
The Honorable Barbara Boxer
The Honorable Frank R. Lautenberg
The Honorable Joseph I. Lieberman
The Honorable Patrick J. Leahy
The Honorable John F. Kerry
The Honorable Ron Wyden
The Honorable Barbara A. Mikulski


United States House of Representatives

The Honorable John D. Dingell
The Honorable James L. Oberstar
The Honorable Hilda L. Solis
The Honorable Rick Boucher


U.S. Environmental Protection Agency (electronic distribution)

Assistant Administrator for Enforcement and Compliance Assurance
Chief Financial Officer
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Regional Administrator, Region 4
Audit Liaisons
